<html>
<title> - LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 810, GREAT APES PROTECTION ACT OF 2011, S. 1249, TARGET PRACTICE AND MARKSMANSHIP TRAINING SUPPORT ACT, S. 2071, PERMANENT ELECTRONIC DUCK STAMP ACT OF 2012, S. 357, WILDLIFE DISEASE EMERGENCY ACT OF 2011, S. 1494, NATIONAL FISH AND WILDLIFE FOUNDATION REAUTHORIZATION ACT OF 2011, S. 1266, DELAWARE RIVER BASIN CONSERVATION ACT OF 2011, S. 2156, MIGRATORY BIRD HABITAT INVESTMENT AND ENHANCEMENT ACT, AND S. 2282, NORTH AMERICAN WETLANDS CONSERVATION EXTENSION ACT OF 2012</title>
<body><pre>[Senate Hearing 112-968]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-968
 
LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 810, GREAT APES 
   PROTECTION ACT OF 2011, S. 1249, TARGET PRACTICE AND MARKSMANSHIP 
 TRAINING SUPPORT ACT, S. 2071, PERMANENT ELECTRONIC DUCK STAMP ACT OF 
2012, S. 357, WILDLIFE DISEASE EMERGENCY ACT OF 2011, S. 1494, NATIONAL 
  FISH AND WILDLIFE FOUNDATION REAUTHORIZATION ACT OF 2011, S. 1266, 
DELAWARE RIVER BASIN CONSERVATION ACT OF 2011, S. 2156, MIGRATORY BIRD 
  HABITAT INVESTMENT AND ENHANCEMENT ACT, AND S. 2282, NORTH AMERICAN 
              WETLANDS CONSERVATION EXTENSION ACT OF 2012

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-052 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

        
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
MAX BAUCUS, Montana                  JEFF SESSIONS, Alabama
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     DAVID VITTER, Louisiana
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
KIRSTEN GILLIBRAND, New York         LAMAR ALEXANDER, Tennessee
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 24, 2012
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     6
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    11
Udall, Hon. Mark, U.S. Senator from the State of Colorado........    14
Begich, Hon. Mark, U.S. Senator from the State of Alaska.........    15
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    67
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island, prepared statement.....................................   207
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   207

                               WITNESSES

Ashe, Hon. Daniel M., Director, U.S. Fish and Wildlife Service...    16
    Prepared statement...........................................    18
    Responses to additional questions from Senator Boxer.........    29
    Response to an additional question from Senator Carper.......    31
    Responses to additional questions from:
        Senator Lautenberg.......................................    32
        Senator Cardin...........................................    33
        Senator Inhofe...........................................    35
        Senator Sessions.........................................    36
Anderson, James M., M.D., Ph.D., Director, Division of Program 
  Coordination, Planning and Strategic Initiatives, the National 
  Institutes of Health...........................................    40
    Prepared statement...........................................    42
    Responses to additional questions from:
        Senator Boxer............................................    50
        Senator Cardin...........................................    50
        Senator Tom Udall........................................    52
    Response to an additional question from Senator Inhofe.......    53
    Responses to additional questions from Senator Sessions......    54
Inkley, Douglas B., Ph.D., Senior Scientist, National Wildlife 
  Federation.....................................................    70
    Prepared statement...........................................    72
    Response to an additional question from:
        Senator Boxer............................................    79
        Senator Carper...........................................    80
    Responses to additional questions from:
        Senator Cardin...........................................    80
        Senator Sessions.........................................    81
Wasserman, Martin, M.D., J.D., former Secretary, Maryland 
  Department of Health and Mental Hygiene, and former 
  Administrator, Oregon Public Health Department.................    83
    Prepared statement...........................................    85
    Responses to additional questions from:
        Senator Boxer............................................   101
        Senator Cardin...........................................   104
        Senator Sessions.........................................   107
Schildwachter, Greg, Ph.D., Watershed Results LLC................   126
    Prepared statement...........................................   128
    Responses to additional questions from:
        Senator Cardin...........................................   135
        Senator Inhofe...........................................   137
        Senator Sessions.........................................   139

                          ADDITIONAL MATERIAL

Testimony by the National Chimpanzee Research Facility Directors 
  Regarding The Great Ape Protection and Cost Savings Act........   209
A letter from the American Littoral Society et al. to Senators 
  Boxer and Inhofe, September 22, 2011...........................   226


LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 810, GREAT APES 
   PROTECTION ACT OF 2011, S. 1249, TARGET PRACTICE AND MARKSMANSHIP 
 TRAINING SUPPORT ACT, S. 2071, PERMANENT ELECTRONIC DUCK STAMP ACT OF 
2012, S. 357, WILDLIFE DISEASE EMERGENCY ACT OF 2011, S. 1494, NATIONAL 
  FISH AND WILDLIFE FOUNDATION REAUTHORIZATION ACT OF 2011, S. 1266, 
DELAWARE RIVER BASIN CONSERVATION ACT OF 2011, S. 2156, MIGRATORY BIRD 
  HABITAT INVESTMENT AND ENHANCEMENT ACT, AND S. 2282, NORTH AMERICAN 
              WETLANDS CONSERVATION EXTENSION ACT OF 2012

                              ----------                              


                        TUESDAY, APRIL 24, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:15 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (Chairman of the Subcommittee) presiding.
    Present: Senators Cardin, Inhofe, Carper, Lautenberg, and 
Udall.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. The Committee will come to order.
    Let me welcome you all to the Subcommittee hearing of Water 
and Wildlife of the Environment and Public Works Committee. I 
want to thank Senator Boxer for permitting the Subcommittee to 
hold this hearing today on a subject I think is important to 
many members of the U.S. Senate. We are taking up several 
bills.
    I want to thank Senator Sessions, who will be here shortly, 
the Ranking Republican Member of the Subcommittee on Water and 
Wildlife, for his help and cooperation, and Senator Inhofe for 
his help.
    With today's hearing we have the opportunity to discuss a 
set of critical issues to protecting the Nation's wildlife. The 
Subcommittee will consider seven bills. I would like to thank 
my colleagues who have worked so hard to craft the bills that 
are before us today. I see Senator Udall and Senator Begich who 
are here, and I want to thank them for their leadership on 
these issues.
    Among the bills we will address are the use of chimpanzees 
in medical research, a bill that would focus Federal attention 
and resources on diseases like white-nose syndrome in bats that 
are devastating an entire animal population--I want to thank 
Senator Lautenberg for his strong leadership on that particular 
issue--and several bills to provide critical support for 
wildlife conservation and habitat protection.
    Three of the bills we are considering today directly 
establish or reauthorize conservation programs; S. 1494, the 
National Fish and Wildlife Reauthorization Act, S. 1266, the 
Delaware River Basin Conservation Act, and S. 2282, the North 
America Wetlands Conservation Reauthorization Act.
    As we attempt to balance Federal spending with the need to 
reduce our deficit, it is important to bear in mind that these 
conservation programs are important not only to preserve the 
health and beauty of our natural environment but also because 
of the significant economic benefits they provide. A study 
commissioned by the National Fish and Wildlife Foundation found 
that outdoor recreation, nature conservation, and historic 
preservation provide 9.4 million jobs and account for over $1 
trillion in the total economic activity.
    In Maryland alone the National Fish and Wildlife Foundation 
has funded more than 400 projects since 2000, including such 
important conservation and restoration projects as manure-to-
energy research at the University of Maryland, watershed 
restoration in the Wicomico River, and oyster restoration 
initiatives to restore key species of the Chesapeake Bay.
    The Delaware River Basin includes the Delaware River 
Watershed in New York, Pennsylvania, New Jersey, and Delaware 
and the Delaware Bay. The basin is home to more than 8 million 
people, and 16 million depend on it as an economic engine, as a 
place for recreation, a source of clean drinking water, and a 
vital habitat for fish and wildlife.
    The North American Wetlands Conservation Act's matching 
grant program, which funds projects to conserve wetlands that 
benefit migratory birds and other wildlife, creates nearly 
7,500 new jobs annually in the United States, and on average it 
generates over $200 million in workers' earnings each year.
    I think everybody is getting to see the theme. These are 
programs that protect the beauty, and what makes America so 
special is unique to our species diversification, but also 
plays a critical part in our economy.
    In addition to conserving wildlife for recreation purposes, 
wildlife also plays a critical role in maintaining a healthy 
ecosystem. They pollinate plants, prey on insects like 
mosquitoes, moths, and beetles, thereby reducing the need for 
pesticides. Yet emerging diseases such as colony collapse 
disorder in bees and white-nose syndrome in bats threaten 
entire species of wildlife. S. 357, the Wildlife Disease 
Emergency Act, would focus resources and attention on diseases 
like white-nose syndrome by creating a Federal plan for 
responding to wildlife disease emergencies.
    Three of the bills we will consider today address the 
ability of marksmen, hunters, and other outdoorsmen to enjoy 
our national wild space. S. 1249, the Target Practice and 
Marksmanship Training Support Act, would give States more 
flexibility to using existing funds to create and maintain safe 
shooting ranges in national parks.
    S. 2071, the Permanent Electronic Duck Stamp Act, would 
authorize the U.S. Fish and Wildlife to sell Federal duck 
stamps on line. Since 1934 sportsmen have been required to 
purchase a Federal duck stamp to hunt migratory waterfowl. The 
program generates approximately $25 million per year, which is 
deposited into the Migratory Bird Conservation Fund to preserve 
habitat and ensure future hunting opportunities.
    S. 2156, the Migratory Bird Habitat Enhancement and 
Investment Act, this bill also affects the Duck Stamp Program 
by permitting the Secretary of Interior, in consultation with 
the Migratory Bird Conservation Commission, to set prices for 
duck stamps. The Duck Stamp Program is an important resource 
for conservation activities nationwide, and especially in my 
home State of Maryland.
    Just this past March, the Department of Interior announced 
that the Migratory Bird Conservation Commission had approved 
over $500,000 in funding to conserve 112 acres of habitat for 
waterfowl and other wildlife in Maryland's Blackwater National 
Wildlife Refuge to be funded with duck stamp proceeds. I am 
very proud of Blackwater Refuge. Its unique habitat and ecology 
make it one of Maryland's most important natural resources. The 
Duck Stamp Program is a key resource for maintaining Blackwater 
and other environmental programs.
    And finally, S. 810, the Great Apes Protection and Cost 
Savings Act, would retire approximately 500 federally owned 
chimpanzees currently in laboratories to permanent sanctuary. 
At Congress' request, the National Institutes of Health 
commissioned a study of the chimpanzees used in biomedical 
research and determined that using chimpanzees was unnecessary 
in most instances. S. 810 is an attempt to address this ongoing 
issue.
    So, we have very important bills that are before us. I am 
pleased, again, with the leadership that the Members of the 
Senate have shown on these important environmental and economic 
issues.
    With that, let me turn to the ranking Republican of the 
Committee, Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. And thank you for 
having this.
    I want to especially welcome Dan Ashe to this hearing. Back 
during the confirmation process we had a chance to visit about 
what his goals were and what our goals were, and he agreed to 
come to Oklahoma to listen to some of the problems that our ag 
community primarily would have with the listing of the lesser 
prairie-chicken. And we were able to really--actually, he had 
two meetings, one in Woodward, way out in the Panhandle, and 
one in more of the central part of the State.
    Anyway, the listing would significantly harm agriculture, 
construction of highway infrastructure, and energy development, 
including numerous wind development projects in the Woodward 
area, which he saw when he was out there. I fly my plane out 
there quite often, and I take people who have not been up. In 
any one place you can see about 300 of these windmills going 
around. So, they have a dog in this fight, too.
    Of course, the listing is not the only option, and it 
certainly is not the best. While in Oklahoma, Director Ashe 
also had a chance to hear about how Oklahomans have invested 
millions of dollars and a great deal of time and significant 
effort and which are increasing the numbers of the lesser 
prairie-chickens without harming our economy.
    I continue to call for the Fish and Wildlife Service to 
allow these voluntary efforts to achieve results before going 
through with the listing decision. Recently, there has been 
talk of a possibility of a 6-month delay which would be most 
welcome as it would give Oklahomans a chance to continue their 
important work.
    So, let me just say thank you, Director Ashe, for your help 
out in Oklahoma.
    Today's hearing is a great opportunity to put the spotlight 
on voluntary efforts as time and time again they prove to be 
the best methods of achieving land and species conservation 
goals without destroying jobs and hurting the economy. One such 
example can be found in a bipartisan bill I sponsored with my 
good friends Senators Boxer and Vitter, the North American 
Wetlands Conservation Extension Act.
    This program has such a good track record for conservation 
precisely because it is a volunteer effort. It incentivizes 
non-Government funds for wetland and wildlife habitat 
conservation. On each, each Federal dollar is matched by $3.20 
from non-Federal contributions. In my State of Oklahoma, it 
currently has 12 projects either completed or underway. These 
projects have conserved some 26,869 acres of wildlife habitat 
and leveraged $11.3 million in partner contributions from the 
$4.9 million in the funding.
    The Hackberry Flat Project in Tillman County has led to the 
restoration of wetland habitat, and the area is now open for 
hunting waterfowl, dove, quail, rabbit, and sandhill cranes. 
When you compare the successes with the Federal mandates which 
most often do not achieve the conservation goals but give 
States unnecessary economic pain it is clear that the voluntary 
programs should be at the center of all conservation efforts.
    In addition to the NAWCA, we will be discussing several 
conservation bills today, including the National Fish and 
Wildlife Foundation Reauthorization Act, which is another 
promising voluntary effort. The National Fish and Wildlife 
Foundation is doing important work protecting the lesser 
prairie-chicken in order to help prevent this listing under the 
Endangered Species Act. Most importantly, the bill reduces the 
authorization level by $5 million while still giving the 
Foundation the ability to leverage funds for conservation 
projects.
    The only other bill I have concerns about is S. 810, the 
Great Apes Protection Act. I look forward to hearing from Dr. 
Anderson from the National Institute of Health, his thoughts on 
this legislation.
    I would like to thank all the witnesses for being here 
today, especially Greg Schildwachter, former Staff Director of 
this Subcommittee, who now works at Watershed Results LLC. With 
his background, he will be able to provide valuable insight on 
the effectiveness of these bills. I look forward to having an 
important dialogue about how best to achieve the conservation 
goals without causing more pain.
    And by the way, I always have trouble with his last name 
because, when he was on the Committee, we just called him Greg.
    [Laughter.]
    Senator Inhofe. Anyway, we have the partnership programs, 
and others have been so successful, and I say to Director Ashe, 
as Oklahoma as kind of a good testing ground for these 
programs, and I think you probably came back with that same 
impression.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I would like to thank Senator Cardin and Senator Sessions 
for holding this hearing on a number of important wildlife 
conservation bills.
    I would especially like to welcome Dan Ashe, Director of 
the U.S. Fish and Wildlife Service. Director Ashe traveled to 
my home State late last year to hear from Oklahomans about how 
devastating a listing of the lesser prairie-chicken would be 
for Oklahoma's economy: this listing would significantly harm 
agriculture, the construction of highway infrastructure, and 
energy development, including numerous wind development 
projects in the Woodward area. But of course a listing isn't 
the only option, and it certainly isn't the best. While in 
Oklahoma Director Ashe also had the chance to hear about how 
Oklahomans have invested millions of dollars and a great deal 
of time in significant voluntary efforts which are increasing 
the number of lesser prairie-chickens without harming our 
economy. I continue to call for the Fish and Wildlife Service 
to allow these voluntary efforts to achieve results before 
going through with a listing decision. Recently there has been 
talk of a possibility of a 6-month delay, which would be most 
welcome as it would give Oklahomans more time to continue this 
important work.
    Today's hearing is a great opportunity to put the spotlight 
on voluntary efforts, as time and time again they prove to be 
the best methods of achieving land and species conservation 
goals without destroying jobs and hurting our economy. One such 
example can be found in a bipartisan bill I am sponsoring with 
my good friends Senators Boxer and Vitter: the North American 
Wetlands Conservation Extension Act of 2012 (S. 2282).
    This program has such a good track record for conservation 
precisely because it is a voluntary effort; it incentivizes 
non-Federal funds for wetland wildlife habitat conservation. On 
average, each Federal dollar is match by $3.20 of non-Federal 
contributions.
    In my State of Oklahoma NAWCA currently has 12 projects 
either completed or underway. These projects have conserved 
26,869 acres of wildlife habitat and leveraged $11.3 million in 
partner contributions from $4.9 million in NAWCA funding. The 
Hackberry Flat project in Tillman County has led to the 
restoration of wetland habitat, and the area is now open for 
hunting waterfowl, dove, quail, rabbit, and sandhill cranes. 
When you compare the success of NAWCA with Federal mandates 
which most often do not achieve conservation goals but give 
States unnecessary economic pain, it's clear that the voluntary 
programs should be at the center of all conservation efforts.
    In addition to NAWCA, we will be discussing several 
conservation bills today, including the National Fish and 
Wildlife Foundation Reauthorization Act (S. 1494), which is 
another promising voluntary effort. The National Fish and 
Wildlife Foundation is doing important work protecting the 
lesser prairie-chicken in order to help prevent its listing 
under the Endangered Species Act. Most importantly this bill 
reduces the authorization level by $5 million while still 
giving the foundation the ability to leverage funds for 
conservation projects.
    I also support Senator Wicker's bill, S. 2071, the 
Permanent Electronic Duck Stamp Act of 2012, which, as stated 
in the title, allows the purchase of electronic duck stamps for 
waterfowl hunters across all 50 States. Migratory waterfowl 
hunters are required to purchase a Federal Duck Stamp from the 
Fish and Wildlife Service, and the stamp grants them access to 
Federal Wildlife Refuges without any additional fees. This bill 
follows a successful pilot program by eight States that allowed 
the purchase of the Federal Duck Stamp online. Additionally, 
this bill comes at no cost to taxpayers.
    One bill, though, that I cannot support in its current form 
is S. 810, the Great Apes Protection Act. While we certainly 
want to treat animals as humanely as possible, this bill goes 
too far with an outright ban on chimpanzee research. Recently, 
the National Academies' Institute of Medicine (IOM) released a 
report regarding the use of chimpanzees in biomedical and 
behavioral research. The IOM report states, ``The committee's 
report does not endorse an outright ban on chimpanzee 
research'' and warns ``how disruptive an immediate outright ban 
would be, affecting animal care and potentially causing 
unacceptable losses to the public's health.'' It continues to 
state that ``chimpanzees may prove uniquely important to 
unraveling the mystery of diseases that are unknown today.''
    Chimpanzee research has led to the development of vaccines 
for hepatitis A and B and has helped gain important insight 
into diseases such as hepatitis C, malaria, HIV, and cancer. An 
outright ban would be very shortsighted and may endanger public 
health.
    I would like to thank all the witnesses for being here 
today, especially Greg Schildwachter, a former staff director 
of this Subcommittee who now works at Watershed Results, LLC. 
With his background he will be able to provide valuable insight 
on the effectiveness of these bills.
    I look forward to having an important dialogue about how 
best to achieve conservation goals without causing more pain in 
tough economic times.
    Thank you.

    Senator Cardin. Again, Senator Inhofe, thank you for your 
leadership on so many of these issues.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for holding this 
hearing on legislation to protect wildlife, including 
legislation that I introduced to address the threats to bats 
and other wildlife.
    Since 2006 more than 5 million hibernating bats have died 
from a disease called white-nose syndrome. And it is happening 
in 19 States across the country, particularly in New Jersey. We 
have a sanctuary for bats called the Hibernia Mine. I went down 
into that mine in 1997 and visited with a bunch of bats. To be 
precise, 30,000 of them were there, and I was very comfortable 
with them, I must tell you.
    The bat population, however, having remained constant for a 
decade, suddenly in 2009 it was discovered that the number of 
bats went from 30,000 down to just 700. Bat mortality rates in 
some caves are approaching 100 percent. You cannot make a 
mistake. The loss of these bats poses a major threat to entire 
ecosystems, with the potential to cause serious environmental 
and economic problems.
    Bats are one of nature's best exterminators, helping to 
protect the public's health and our crops. They prey almost 
exclusively on mosquitoes and other insects which spread 
disease, and moths and beetles which damage crops. A single bat 
can eat half of its body weight in insects in a single night, 
and an entire colony will consume hundreds of millions of 
insects.
    In the 6 years since the white-nose syndrome was first 
discovered in New York State, we have made some progress in the 
fight against the disease. We had a hearing in this 
Subcommittee, last Congress, and have secured more than $5 
million to address white-nose syndrome. The challenges that 
make white-nose syndrome so difficult to address are the same 
as those that affect many developing wildlife diseases. And as 
a result, Federal agencies have been able to determine the 
origin and cause of white-nose syndrome.
    Last month, Senator Leahy and I sent a letter to the 
Appropriations Committee, signed by 11 other Senators, asking 
for additional funding for white-nose syndrome. But we must do 
more, which is why I introduced the Wildlife Disease Emergency 
Act.
    So, what we have to do is, we have got to really put our 
resources into this fight. Today, we are forced to scramble to 
develop a basic response to a disease, only to find out that 
the outbreak has surpassed the scale of the response. In the 
years since the white-nose outbreak began, the Fish and 
Wildlife Service has done great work to coordinate response 
across several agencies and with State governments.
    My bill would help Federal and State agencies to be better 
prepared to respond to future outbreaks of wildlife diseases. 
It would also authorize more resources to address wildlife 
disease emergencies, including the ongoing response to white-
nose syndrome.
    The bill still is endorsed by 17 wildlife groups, including 
Bat Conservation International, the National Resource Defense 
Council, the Defenders of Wildlife, and many other 
distinguished agencies. In a letter of support, they note 
overarching coordination is necessary to promote efficiency and 
prevent redundancy and that this bill will provide that 
coordination.
    And I ask unanimous consent that their letter of support be 
included in the record.
    Senator Cardin. Without objection.
    Senator Lautenberg. Our mission is clear. We have got to do 
more to stop this deadly outbreak and be better prepared to 
stop the next wildlife disease emergency.
    I thank the witnesses for being here. I look forward to 
hearing from them today on all of these bills.
    I thank you, Mr. Chairman.
    [The referenced letter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Cardin. Thank you.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Tom Udall. Thank you, Senator Cardin. I will try to 
be brief since our colleagues are here. But I want to thank you 
for holding this hearing on all of these very important bills.
    This Committee has the important task of ensuring that 
wildlife throughout the Nation is appropriately managed. The 
bills before the Subcommittee today do a great deal to help 
ensure species are protected, watersheds are vibrant, and 
animals receive humane treatment.
    About 1 year ago I invited Senators Bingaman and Harkin to 
join me and ask the National Academy of Sciences to complete a 
study on the necessity for chimpanzee use in biomedical and 
behavioral research. This study was meant to lay out the 
scientific basis for the need for chimpanzees in research and 
to inform future policy decisions relating to invasive research 
on chimpanzees.
    I commend the National Academy of Sciences for taking on 
the task, which was assigned to and completed by the Institute 
of Medicine. The Institute was diligent in bringing in experts 
from diverse fields and allowing for public involvement. The 
resulting report is a non-biased resource for policymakers.
    I would also like to commend the National Institutes of 
Health for their quick and deliberate response to the report 
and look forward to hearing what progress the National 
Institutes of Health has made toward adopting the 
recommendations of the IOM.
    I also look forward to hearing from the other panelists 
today.
    The most important thing that they concluded was that, for 
the most part, chimpanzees are not needed in most research, 
which was a bit of surprise, I think, to everyone, and it looks 
like we are going to--Chairman Cardin, you mentioned this in 
your opening statement--move forward with those recommendations 
expeditiously.
    Jane Goodall just put together testimony, Chairman Cardin, 
on this particular issue, and I have a copy of that, and I 
would ask that it be put in the record. And I would also ask 
that the remainder of my opening statement be deferred and give 
the courtesy to our colleagues that are here to inform us on 
the pieces of legislation they are working on.
    And with that, I yield back.
    Senator Cardin. Without objection, your full statement will 
be included in the record, as well as the additional comments 
from the other person mentioned.
    [The referenced testimony follows. The prepared statement 
of Senator Tom Udall was not received at time of print.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cardin. We will now turn to our colleagues.
    First, let me welcome Senator Mark Udall to our Committee. 
Senator Udall is the sponsor of S. 1249, the Target Practice 
and Marksmanship Training Support Act.
    It is a pleasure to have you before our Committee.

             OPENING STATEMENT OF HON. MARK UDALL, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Mark Udall. Thank you, Mr. Chairman, and in the 
spirit of my good cousin from New Mexico, I will also try to be 
brief.
    I want to thank you and Ranking Member Sessions for your 
support. I am also grateful to Chairwoman Boxer and Ranking 
Member Inhofe for including my bipartisan legislation into 
today's hearing. I want to also acknowledge my good friend, 
Senator Lautenberg from New Jersey.
    I have introduced the Target Practice and Marksmanship 
Training Support Act. It is designed to encourage the 
development of high quality shooting ranges which are open to 
the public by amending certain parts to the Pittman-Robertson 
Wildlife Restoration Act. That Act provides Federal support for 
certain wildlife restoration and hunter education programs.
    My bill would give the States greater flexibility over the 
Federal law than they already receive from the PR, the Pittman-
Robertson funds, which would free up more money to build 
shooting ranges. The funds from Pittman-Robertson come from an 
excise tax on the sale of shooting and archery equipment. This 
bill helps those paying into the system, which are primarily 
sportsmen, get a better return on their investment.
    By focusing on flexibility with already allocated funds, 
the legislation will not cost taxpayers an additional dime. And 
in return, I believe it will be a tremendous boon for our 
sportsmen and our outdoor recreation communities which are not 
only an integral part of our national heritage but are a key 
component of our economy, especially in rural areas, which we 
all do represent.
    For those reasons, the bill has broad bipartisan support. 
Here, Senator Risch teamed up with me to author the bill. It 
has broad support within the sportsmen's community, and I am 
grateful for the support that we have gotten from everybody 
from the National Shooting Sports Foundation to the National 
Rifle Association.
    As you all know, often the best ideas for legislation come 
from the local communities, and I really had overwhelming 
support in Colorado from people who want to see the development 
of more high quality shooting ranges. So, I want to finish with 
some comments from two of my constituents.
    Donald in Pagosa Springs, Colorado, which is down in the 
wonderful southwestern part of the State near my cousin's State 
of New Mexico. He wrote to me, I have been a hunter education 
instructor for over 30 years and helped teach over 5,000 
students. Since we have no public shooting facilities in the 
Pagosa Springs area, it is always a challenge to find a safe 
and accessible location for the range portion of the class. We 
desperately need a range facility in our area to be able to 
continue teaching our kids and those who are new to hunting how 
to safely handle firearms.
    From Gary in Aurora, Colorado, my father helped to found 
and build a recreational shooting facility in the late 1950s. I 
was literally brought up at the range. I spent every weekend 
working there. These ranges are not just a place to shoot. They 
are a close knit family full of diverse people. Our club has 
also taught my son the love of shooting and safety along with 
me. I cannot stress this enough as we are seeing more and more 
clubs closing down. We need more places to teach, enjoy, and 
relax with fellow shooters.
    So again, Mr. Chairman, thank you for giving me an 
opportunity to present my bill to you, and I look forward to 
working with the Committee to advance this important 
legislation.
    Senator Cardin. Thank you, Senator Udall. I appreciate your 
leadership on this and so many other issues.
    Senator Begich is the principal sponsor of S. 2156, the 
Migratory Bird Habitat Investment and Enhancement Act.
    Senator Begich.

            OPENING STATEMENT OF HON. MARK BEGICH, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Begich. Thank you, Chairman Cardin, and also the 
other members that are here for holding this hearing today, 
including S. 2156, the Migratory Bird Habitat Investment and 
Enhancement Act.
    Since it was created in 1934 the Federal Duck Stamp Program 
has been one of the most successful conservation tools in 
history. It has raised over $750 million and has preserved over 
5 million acres of wetlands to protect waterfowl habitat. It 
has preserved lands which maintain our hunting heritage and 
boosted waterfowl population for enjoyment by all.
    I introduced the bill to address two issues with the duck 
stamp. One is to adjust the price. The current price, $15, has 
not changed since 1991, and has lost over half its value due to 
inflation. Without a change, the Duck Stamp Program cannot 
continue to do the work it has been doing.
    Rather than just hike it, I propose to allow the Secretary 
of Interior, in consultation with the Migratory Bird 
Conservation Commission, to adjust the price once every 5 
years. I think you will hear from the duck hunters that even 
they support this since they benefit directly from the program.
    My bill also allows the Secretary to grant limited waivers 
from the stamp fee. That is a response to subsistence shooters 
in my State who argue they have already done their part for 
wetlands conservation. Millions of acres of native lands have 
been set aside in refuges or in some other protected status. 
Such a waiver would have minimal impact on the Duck Stamp 
Program but will relieve subsistence users who still live off 
the land for most of their diet from the cost of this Federal 
program.
    I welcome your consideration of this bill and would be 
happy to answer any questions you may have as you move forward 
on this piece of legislation.
    Thank you, Mr. Chairman.
    Senator Cardin. Well, thank you, Senator Begich and Senator 
Udall. We thank both of you for your leadership on these 
important issues. And I do not see that there are any questions 
from members of the Committee, so thank you very much. You are 
both excused.
    We will now turn to our first panel. We are pleased to have 
Hon. Dan Ashe with us. He is the Director of the U.S. Fish and 
Wildlife Service, the Nation's principal Federal agency 
dedicated to the conservation of fish and wildlife and their 
habitats.
    Director Ashe has a long and distinguished career in 
conservation. Prior to assuming the Director's position, he 
served within the Fish and Wildlife Service as Deputy Director 
for Policy, as a science advisor, and as Chief of the National 
Wildlife Refuge System. I also am pleased to note that he is a 
Maryland constituent.
    We are also pleased to have Dr. James Anderson. Dr. 
Anderson is the Director of the Division of Program, 
Coordination, Planning and Strategic Initiatives of the 
National Institutes of Health. Dr. Anderson has expertise in 
both clinical medicine and academic research and has held key 
academic positions with the University of North Carolina, 
Chapel Hill, and the Yale School of Medicine.
    Welcome, both of you, to our Committee. We thank you for 
your service to our country, and we thank you for being here 
today.
    We will start off with Mr. Ashe.

          STATEMENT OF HON. DANIEL M. ASHE, DIRECTOR, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Ashe. Thank you, Senator Cardin, Committee members. It 
is great to be here.
    Senator Inhofe, I would start off by again saying thank you 
for the invitation to come to Oklahoma. It was a wonderful 
opportunity. It was tragic just about 2 weeks ago when I saw 
that a tornado had occurred in Woodward, and it made me feel 
for those great people up there. So, my heart goes out to 
everyone there, Senator.
    I would like to begin by saying the Committee is 
considering a great breadth of legislation today, things that 
really touch on the breath of challenges that we are facing in 
the wildlife conservation world today. As we think about those 
challenges, we have to think about the root of those 
challenges, and it really is us.
    We see, of course, continued expansion of population at the 
world scale but also at the United States scale. And it is not 
just an expansion in the total number of people. It is the 
expansion of affluence in both the United States and in the 
world as a whole.
    We all want a better place for our children and 
grandchildren. We want a strong economy; we want an expanding 
economy. But I think we have to realize that what that means 
for the land and the water resources of our Nation and the 
world is that we will be asking more of the land and water 
resources to produce more food, more fuel, more fiber, and more 
water for our human needs. And that means, of course, less for 
the rest of what we could collectively call biological 
diversity.
    So, as you see these pieces of legislation before you today 
you are really dealing with the root of the issues and 
challenges that we face, the continued fragmentation and 
destruction of habitat.
    I will point you to the prairies, the American prairies 
where, which are really the--we call it the duck factory as we 
think about waterfowl in the United States. We are seeing a 
perfect storm in the American prairie today driven by $8 a 
bushel corn, but also new genetically modified crops that allow 
growing of crops in wetter and drier areas, new draining and 
tiling techniques that allow the removal of water from many of 
these systems. And so, we are seeing the conversion of wetland 
and grassland habitat in the prairies at rates that are 
unprecedented.
    So as you are considering today the reauthorization of the 
North American Wetlands Conservation Act, and the authorization 
for the Secretary to increase the price of the duck stamp, 
these will be vital tools to us as we seek to conserve 
America's great wetlands, expand our partnership with Canada 
and Mexico, and continue to great heritage of waterfowl hunting 
and the great tradition that it supports.
    As we see habitats diminishing, it also means that our 
wildlife populations will be more susceptible to stressors like 
wildlife disease. Senator Lautenberg has been a leader in 
raising the profile of white-nose syndrome. We are also dealing 
with the challenges of chytrid fungus in amphibians, which is 
driving worldwide decline amphibians.
    Of course, again, the root of many of these problems is 
trade. We see trade globally escalating. And many of our laws 
like the Lacey Act, which is a key wildlife enforcement law, 
was written in 1900 when trade moved by steam locomotive for 
the most part. And now we have, of course, global trade where 
we can move products and commodities across the globe on a 24-
hour scale.
    So, as we think about the challenge of conservation, many 
times in the past we have driven our philosophy of conservation 
from a public land base, and public lands in the United States 
are about 30 percent of the land base. I mean, 70 percent is in 
private ownership.
    So, the legislation that is before you to reauthorize the 
National Fish and Wildlife Foundation, of course, that public-
private partnership, is essential to us as we think about 
conservation in the future, and organizations like the National 
Fish and Wildlife Foundation that provide the opportunity to 
bring and leverage public and private partnerships are 
essential as we think about conservation in the 21st century, 
and of course expanding the opportunity for outdoor recreation 
as represented in Senator Udall's legislation and Senator 
Begich's legislation.
    I think that that opportunity to use an instrument like the 
Pittman-Robertson Program and the Wildlife and Sport Fish 
Restoration Program to expand opportunities for shooting on 
public land is a great opportunity for the future.
    So, expanding challenges in an era of diminishing resources 
means that we need exceptional leadership. And I want to thank 
you, Mr. Chairman, and all of the members of the Committee, for 
your great leadership as represented by the legislation that 
you are hearing today.
    [The prepared statement of Mr. Ashe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cardin. Thank you, Mr. Ashe.
    Dr. Anderson.

STATEMENT OF JAMES M. ANDERSON, M.D., PH.D., DIRECTOR, DIVISION 
 OF PROGRAM COORDINATION, PLANNING AND STRATEGIC INITIATIVES, 
               THE NATIONAL INSTITUTES OF HEALTH

    Dr. Anderson. Good morning, Mr. Chairman and members of the 
Subcommittee.
    I am pleased to testify about NIH's efforts to implement 
the recent recommendations offered in a December 15, 2011, 
report by the Institute of Medicine [IOM] and accepted by the 
NIH regarding the use of chimpanzees in NIH-supported research.
    As the Subcommittee begins consideration of S. 810, the 
Great Ape Protection and Cost Savings Act, I look forward to 
discussing the recommendations of the IOM and NIH's efforts to 
implement them as we continue to focus on our mission of 
improving human health and saving lives.
    The use of animals in research has enabled scientists to 
identify new ways to treat illness, extend life, and improve 
health and well-being. Chimpanzees are our closest relatives in 
the animal kingdom, providing exceptional insight into human 
biology and the need for special consideration and respect. NIH 
is deeply committed to the care and welfare of chimpanzees.
    While used very selectively and in limited numbers, 
research involving chimpanzees has served an important role in 
advancing human health in the past. Just a few examples, 
contributing significantly to the development of oral vaccine 
for polio and the vaccines for hepatitis A and B, developing 
FDA approved antibodies for the use and treatment of lymphomas 
and other cancers, and pioneering new uses for immune cells in 
cancer immunotherapy.
    However, new methods and technologies developed in the 
biomedical community have provided alternatives to the use of 
chimpanzees in several areas of research. Consequently, in 
December 2011, with the encouragement of Senator Udall on this 
Subcommittee and other Members of Congress, NIH commissioned a 
study by the IOM to assess whether chimpanzees are or will be 
necessary for biomedical and behavioral research.
    A year later, December 15, 2011, the IOM issued its 
findings and concluded, among others, that the use of 
chimpanzees in current and future research should be guided by 
specific principles and criteria. And based on these 
principles, they concluded that most current use of chimpanzees 
for biomedical research is unnecessary with the exception of 
some areas that may still require their use.
    Of special relevance to today's hearing, they also 
concluded that new, emerging, or re-emerging infectious 
diseases may present challenges that defy non-chimpanzee models 
and therefore may require that chimpanzees be used in future 
research.
    After accepting the IOM recommendations, NIH immediately 
halted issuance of any new awards for research involving 
chimpanzees until processes for implementing the 
recommendations are in place.
    In addition, the NIH has assembled a working group within 
the NIH Council of Councils--that is a Federal advisory 
committee--to provide advice on the implementation of the IOM 
recommendations and to consider the size and placement of 
active and inactive populations of NIH-owned or supported 
chimpanzees.
    The working group began their work in early February of 
this year, and NIH anticipates they will present their final 
report during a session of the Council of Councils in early 
2013. After the Council considers the working group's report 
and recommendations, the NIH will open a 60-day public comment 
period on the implementation of the report and recommendations.
    Throughout this process, NIH remains committed to 
conducting and supporting high quality science in the interest 
of advancing public health and to the humane care of animals 
used in NIH research. Animals used in federally funded research 
are protected by laws, regulations, and policies to ensure the 
greatest commitment to their physical and emotional comfort and 
welfare.
    I would like to close by thanking the Subcommittee for 
inviting NIH to provide an update on its activities to 
implement the IOM recommendations. I want to assure you, Mr. 
Chairman and members of the Subcommittee, that we place the 
appropriate care and use of animals as a fundamental principle 
at the core of all our research activities.
    I would be happy to try and answer any questions.
    [The prepared statement of Dr. Anderson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Senator Cardin. Again, thanks to both of you for your 
presence and your testimony.
    Mr. Ashe, let me start with you if I might. You commented 
about the bills that are basically under the jurisdiction of 
your agency, the U.S. Fish and Wildlife Service. There are 
seven bills here that generally come under your jurisdiction. 
Could you tell us specifically whether you have a position in 
support of this legislation, these bills, or whether there are 
any suggested changes that you would like to see us consider as 
we look over the seven bills that would generally come under 
Fish and Wildlife?
    Mr. Ashe. Mr. Chairman, my written testimony goes through 
each bill one by one. I would say that we either support, or 
support the intention of, each of the bills today. We have 
indicated in a couple of instances things where we might like 
to see some changes or expansion in the direction of the bills. 
And so, we are happy to work with the Subcommittee on each and 
every one of those bills. We would like to, I think we would 
enjoin to see enactment of all of them, and we look forward to 
working with the Committee as you go forward.
    Senator Cardin. And your full statement will be, both of 
your full statements, will be included in our record.
    I think that is very helpful. It is very positive. I know 
that Senator Lautenberg has worked very hard on the, dealing 
with the concerns of the wildlife disease emergencies, and it 
is well beyond just the problems with the white-nose syndrome 
for bats. There are other areas of equal concern. And the 
white-nose syndrome is far beyond just one State. There are 
many States that are involved in it.
    Do you see that bill as an opportunity for us to better 
coordinate responses to these types of emergencies?
    Mr. Ashe. We do. And the issue of wildlife disease, as I 
said, is one of the great emerging challenges for wildlife 
conservation. Of course, it always has been an issue. For 
instance, avian botulism has always been an issue that the Fish 
and Wildlife Service has had to deal with. But now we are 
seeing these exotic diseases.
    Again, the root of many of them is trade and our really 
kind of weak authorities to regulate the movement of animals in 
international trade. And so, Senator Lautenberg's bill is 
certainly a great step in the right direction to encourage and 
support a better coordination in terms of a response to disease 
emergencies.
    I think we also need to think about how we can prevent 
these exotic diseases from getting into our wildlife 
populations in the first place. And that is an area that we 
would like to work with the Committee to consider how we might 
envision more effective mechanisms of preventing these disease 
outbreaks before they occur.
    Senator Cardin. Thank you.
    I point out that conservation programs, they are very, very 
efficient programs in getting dollars out to deal with 
conservation. The duck stamp, I think it is 98 cents of every 
dollar goes directly out to acquisition of acreage which is 
under protection, like 5 million acres have been protected 
under the Duck Stamp Program.
    So, I think it is important for us to try to modernize 
those programs and make them even more effective. And I 
appreciate Senator Begich's comments about it. Does your 
written statement deal with the waiver suggestion that he has 
made?
    Mr. Ashe. It does. We are strongly supportive of Senator 
Begich's bill. Of course, the last time the price of the stamp 
was adjusted was 1991. So we have lost purchasing power. The 
price of the stamp today, our estimate is that it would have to 
be $24 to have the same purchasing power as in 1991.
    So increasing the price of stamps, which is supported by 
all of the major waterfowling organizations and hunting 
organizations like Ducks Unlimited and Delta Waterfowl and 
others, but then the exemption process that the Senator 
envisions will allow us to deal with some of the basic 
injustice and equity issues like he mentioned with Alaska 
natives, where we have Alaska natives that are engaging in a 
subsistence hunt, not a sport hunt, and they, as the Senator 
said, they conserve millions upon millions of acres of 
wetlands.
    And so, we believe that there is an appropriate balance 
that can be made in instance like that where an exemption would 
not affect the revenue substantially or our ability to more 
broadly enforce the purchase and carry requirements for the 
duck stamp.
    Senator Cardin. Thank you very much.
    I can also mention the National Fish and Wildlife 
Foundation since it has funded, I have been told, over 400 
Maryland projects since 2000, is a very important program for 
us to reauthorize.
    I also have questions in regard to Dr. Anderson and the 
chimpanzees, but my time in the first round has expired, and I 
guess that some of my colleagues will be questioning on 
subjects that I may have questioned anyway, so let me turn it 
over to Senator Inhofe.
    Senator Inhofe. OK. Thank you, Mr. Chairman.
    Director Ashe, I really do appreciate your coming out and 
talking to our constituents and also your recognition of what 
happened in Woodward, Oklahoma. It was just really tragic. I 
knew one of the persons who died in that tornado. So I will 
pass that on, your concern and your condolences at the same 
time.
    As you know, this issue is really important to the people 
of Oklahoma along with the people of the other four States 
making a very significant push to ensure the long-term 
viability of this species. That said, I know that the proposed 
listing deadline is coming up in September, and the settlement 
agreements allow the Service to grant a 6-month extension so 
biologists can continue examining this species.
    I do not want to ask you for a commitment. I just ask if 
you would be as flexible as possible to working with my office 
and other stakeholders to allow time for these efforts to 
demonstrate what they are able to do.
    Mr. Ashe. We will work with you, Senator. The law does 
provide us with some flexibility to take into account new 
information. And the State of Oklahoma, as you know, has been a 
leader. I met last week again with Secretary Gary Shearer, and 
the State is really producing a great plan for conservation of 
the lesser prairie-chicken and is leading the other four States 
within the range of the species. So we look forward to working 
with the State of Oklahoma and the other range States and we 
will provide as much flexibility as we possibly can.
    Senator Inhofe. That is great. And I appreciate that. That 
is all I could ask.
    Could you just make some comments about the reauthorization 
of the North American Wetlands Conservation Act, and more 
specifically, why it is important to have a voluntary program 
like that that offers the--that incentivizes the State and 
private funding? Your comments about the NAWCA.
    Mr. Ashe. Sure. First, I want to begin with thanking you 
for your leadership in introducing that legislation. The North 
American Wetlands Conservation Act has been an absolute--has 
become an absolute foundation of our ability to conserve the 
waterfowl resource in the United States. It provides a bridge 
between Canada and the U.S. and Mexico, coordinates response 
amongst all of the agencies within the three governments. So, 
in the United States, it is Interior, it is Agriculture, the 
Department of Defense. We have partners like The Nature 
Conservancy, Ducks Unlimited, Trust for Public Lands. All of 
our State agencies are partners in that process.
    So the North American Waterfowl Conservation Act has really 
become a singular success leveraging public dollars, 2 and 3 
and 4 to 1. At the Migratory Bird Conservation Commission 
meeting last month they presented a slate of projects that were 
matched with three private dollars for every Federal dollar. 
So, just a tremendous success story, and the bill needs to be 
reauthorized so that we can continue that record.
    Senator Inhofe. OK. I appreciate that very much.
    Dr. Anderson, we had a hearing, it was not too long ago, I 
remember Senator Lautenberg and I were very interested in that. 
It was about some of the extreme animal rights groups coming in 
and trying to stop all experiments. I remember my son calling 
me, he is a medical doctor, saying well, Dad, do they not 
understand the choice may be animals or people? So, I know that 
this is something that we have to deal with.
    In that case, however, there are specific things that we 
are able to achieve and demonstrate having been done. Do you 
want to make any comments about some of the really, not any 
specific extremist groups, but this idea that they should do 
away with all that type of experimental activity put together?
    Dr. Anderson. Well, I would like to point out that the 
chimpanzee model being close to humans has been invaluable in 
the past. It has provided us with the oral Sabin vaccine. I 
just remembered the number. In 1952 there were 52,000 cases of 
polio. It is eradicated in the United States now. And there are 
similar dramatic improvements because of vaccines for hepatitis 
A and B.
    Senator Inhofe. Now, I am old enough to remember. Do you 
really think that would not have happened if we had not had the 
opportunity to use chimpanzees? Was that a major player in this 
success?
    Dr. Anderson. These were major.
    Senator Inhofe. Yes. Yes.
    Dr. Anderson. But that said, the Institute of Medicine, we 
have accepted their recommendations that there be criteria, 
really a high bar for using chimpanzees in the future. Part of 
this is because we have developed other models. There is a 
humanized mouse now that can be infected with hepatitis C. It 
is not perfect. We are not quite there in replacing all uses of 
chimpanzees.
    But the IOM pointed out that there were appropriate uses 
currently, I think most importantly, if we were to consider not 
having the model available, is, they pointed out, that there 
will be new and emerging, unexpected infectious diseases for 
which this model will be appropriate. And in the last few 
decades we have had examples of viral and bacterial infections 
where the chimpanzee has been the best model.
    Senator Inhofe. Now, on the chimpanzee, you would not 
support a total, outright ban on all experiments on the 
chimpanzee?
    Dr. Anderson. That is correct. NIH has accepted those 
recommendations from the IOM that this continue as an available 
model, but that there be high criteria for when we use it.
    Senator Inhofe. Sure, sure.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Mr. Ashe, thank you both for your important testimony here.
    Over the past several years, Congress has appropriated $5 
million in funding to fight the white-nose syndrome. We are now 
fighting for more resources to conduct our campaign. What 
progress so far has Fish and Wildlife made toward addressing 
the disease? Are we making any progress?
    Mr. Ashe. I think we are making tremendous progress, 
Senator. Of course, funding has been essential to that 
progress. I think we are understanding more about the disease. 
I mean, you mentioned 19 States. We have an extensive 
monitoring framework now that is done cooperatively with our 
State and other Federal partners. We have put in place 
protocols for cave--for consideration of cave closures, and 
cave resource management. We are and have worked on rapid 
response plans. So I think we have, we have made tremendous 
strides in our understanding of the disease.
    Of course, what eludes us still is how to prevent further 
spread of the disease and really even fully understanding the 
vectors through which the disease is moving across and between 
the States. And so, we need more support. We need more 
research. We need improved partnership in the future between 
Federal, State, and private parties if we are going to attack 
the problem. But it is extremely complex.
    Senator Lautenberg. Well, we have marshaled a lot of 
resources, not just the funds but organizationally. And we know 
that in Europe there is a different version of the white-nose 
syndrome. I do not know what we are learning from them, but I 
assume that we are swapping information freely?
    Mr. Ashe. We are working with Europe. Of course, the 
fungus, the same fungus essentially in Europe does not cause 
the mortality in bats that we see in the United States. And so, 
there is always hope that bats here, that we will see an 
adaptation. There has been some indication that there may be 
some adaptation occurring, but it is way too early to tell 
whether that will be widespread.
    But what we need is to better understand how the fungus is 
moving, how it is affecting bats at the population scale, what 
kind of management can we undertake to mitigate the effects on 
bat populations.
    Senator Lautenberg. All of the questions that you just 
posed are very good, and we look to you for the answers.
    Mr. Ashe. Thank you, sir.
    Senator Lautenberg. The white-nose syndrome killed upwards 
of 5 million bats and continues to spread across the country. 
Now, earlier this year, the disease was confirmed west of the 
Mississippi, raising the risk for some of our largest 
agricultural States. What impact might the decimation of the 
bat population have on agriculture?
    Mr. Ashe. We speak a lot these days in the conservation 
world of ecosystem services, essentially the free service that 
healthy and vibrant ecosystems provide. We know they provide 
flood control. They provide air quality and water quality 
benefits. The bats, they provide a huge benefit to the 
agricultural industry in terms of elimination of pests, insect 
pests. And so some of the estimates are $20 billion to $25 
billion in ecosystem services that are provided by bat 
populations to the agricultural industry.
    So, the decline, a potential decline or devastation in bat 
populations is of tremendous consequence to the American 
people, not just in the economic effect but then, in order to 
replace that service, we have to use pesticides. So there would 
the corresponding increase in our reliance upon pesticides with 
the corresponding potential and wildlife effects.
    Senator Lautenberg. And obviously price increases would 
like follow, as the crops are produced in less quality.
    Dr. Anderson, I have introduced legislation to reform our 
country's broken chemical safety law. We talk about TSCA, in 
particular. Included in my Safe Chemicals Act is a provision to 
reduce animal-based testing and promote research into advanced 
toxicity testing techniques. How far along are we--we have 
talked about this fairly extensively already--in developing 
tests that provide scientifically valid data without using 
animals at all?
    Dr. Anderson. We are not quite there yet. The thing that is 
on the horizon now is the use of small, isolated units of 
biology, or a few cells that mimic something about the body 
that we can interrogate with toxins or with pharmaceuticals. We 
have several examples of that at NIH that we have recently 
developed. One is a big program with DARPA and FDA in 
regulatory science, or how do we collect the data to review 
drugs appropriately and safely move them along and hopefully 
faster. We have a way to go, but are working very hard in this 
area.
    Senator Lautenberg. Thanks, Mr. Chairman. I have additional 
questions I will submit for the record.
    Senator Cardin. That is perfectly acceptable.
    Senator Udall.
    Senator Tom Udall. Thank you, Chairman Cardin.
    Thank you both for your testimony. Director Ashe, in 
particular I appreciate your testimony on the population impact 
on our natural resources. I am glad that is something that you 
are concerned about, and also your concerns for diversity.
    We have, Dr. Ashe, a very important decision, as you know, 
the upcoming listing decision of the dunes sagebrush lizard, an 
extremely important issue in southeastern New Mexico. New 
Mexico ranchers, oil and gas producers, the State Land Office, 
and BLM have entered into conservation agreements covering 90 
percent of the lizards' habitat in New Mexico.
    Last week, Senator Bingaman and I sent you and Regional 
Director Tuggle a letter commending the work on these 
agreements. We encourage the Fish and Wildlife Service to 
finalize similar agreements in Texas. What do these 
conservation agreements mean for ranchers or oil and gas 
producers who have signed them?
    Mr. Ashe. I think that what we see emerging in New Mexico 
and hopefully expanding into western Texas is really a model of 
how we can approach endangered species conservation in the 
future. And those candidate conservation agreements and 
candidate conservation agreements with assurances, in 
particular, what they represent to those landowners is 
essentially insurance that if a listing does occur, that what 
they are doing, those best management practices that they are 
implementing, will be enough. That is all they will be held to.
    So, in the best case, they can help us avoid a listing 
because by implementing those best management practices they 
are abating the threat to the species. And so, we are hopeful 
that we may be able to avoid the necessity to list if we get 
similar commitments in Texas. But even if we have to list, they 
have that assurance that those practices that they have 
committed to are all that they will be held to in the event of 
a listing.
    Senator Tom Udall. And from a scientific perspective, how 
valuable are these agreements to protect the species?
    Mr. Ashe. Well, they attack the cause. The threat to the 
species is the loss and fragmentation of its habitat. And so, 
the foundation of those agreements is avoidance of the shinnery 
oak habitat that is key for the dunes sagebrush lizard, 
avoidance, minimization of damage and then mitigation of any 
damage that does occur. So, it is essential to dealing with the 
threat to the species.
    Senator Tom Udall. And from a legal perspective, how 
significant are these agreements under the Endangered Species 
Act?
    Mr. Ashe. Well, as I said, they provide the key if we are 
doing to avoid the necessity for a listing because we have to 
show that the threat to the species has been abated. And so, 
from a legal standpoint they would provide the underpinning 
that is necessary if we are going to reach a not warranted 
conclusion.
    Senator Tom Udall. As you are aware, Director Ashe, the 
Center for Excellence for Hazardous Materials Management in 
Carlsbad is a respected and independent third party non-profit 
organization responsible for holding the lizard permit as part 
of these conservation agreements. Can you explain the role of 
the Center for Excellence in Carlsbad and how valuable they 
have been in this process?
    Mr. Ashe. We have to--when we form a candidate conservation 
agreement, we have to have somebody to hold a permit, and in 
this case we have had a third party step up in New Mexico to be 
the holder of that permit. Then they will be the party that we 
go to to ensure terms are being adhered to and that we can show 
that the conservation that is supposed to occur is actually 
occurring. We have seen, thus far, an excellent track record in 
New Mexico, so reason for optimism.
    Senator Tom Udall. And their job is to go out on the ground 
and make sure that the conservation is actually occurring?
    Mr. Ashe. Occurring, correct.
    Senator Tom Udall. The third party permit holder. Have we 
ever seen conservation agreements on the scale that New Mexico 
has done for the lizard? And if they are successful, could they 
be a model to protect future species?
    Mr. Ashe. I am not aware of any application where we have 
seen candidate conservation agreements at this scale. We have 
now 2 million to 2.5 million acres of land in eastern New 
Mexico covered under candidate agreements that will help us 
conserve both the lizard and the lesser prairie-chicken. And 
this really is, I think, an emerging model for endangered 
species for candidate conservation where we get ahead of a 
listing decision, we put conservation on the ground, we are 
working with private landowners.
    And I would have to give a bit of shout out to the Bureau 
of Land Management in this case in eastern New Mexico. The 
Bureau of Land Management has been an exceptional partner in 
this endeavor. And you are also considering here today the 
reauthorization of the National Fish and Wildlife Foundation. 
The Foundation has been a grantee in this case and has been a 
key partner in making this success story happen.
    Senator Tom Udall. Thank you.
    Chairman Cardin, I just have one additional question for 
Dr. Anderson, and then I would submit the rest of my questions 
for the record.
    Dr. Anderson, in Alamogordo, New Mexico, there is a primate 
facility housing approximately 200 chimpanzees formerly used in 
research. This group of chimpanzees has been described 
extensively by scientists and in the media as sick, aged, 
infected, diseased, maimed, and scarred. Many scientists have 
suggested this group, in particular, is completely 
inappropriate for invasive testing.
    Members of Congress, members of the New Mexico legislature, 
and the city of Alamogordo have expressed concerns to the 
National Institutes of Health over further invasive testing on 
this group of chimps. As you know, the vast majority of these 
chimpanzees have not been used in invasive studies since 2001.
    It is my understanding that all the Alamogordo chimpanzees 
were exposed to hepatitis C and HIV during their years in 
research, and most of the population is affected with multiple, 
chronic conditions. Does preexisting exposure to hepatitis C 
and HIV limit the usefulness of chimpanzees in future research? 
And are there areas of research where this specific Alamogordo 
population with their ongoing conditions could still be used in 
light of the IOM study?
    Dr. Anderson. Well, first, let me reassure you that there 
is no research at the Alamogordo facility, and we have charged 
the working group with making recommendations on the size and 
the placement of future populations, the size of a group of 
animals that would be needed for research, and the Alamogordo 
population will fall within their considerations.
    Senator Tom Udall. Thank you. Thank you very much.
    And Chairman Cardin, thank you for your courtesy in letting 
me go over a little bit there.
    Senator Cardin. Let me now recognize Senator Carper and 
thank him for his leadership on the Delaware River Basin 
Conservation Act, S. 1266. Before Senator Carper begins, let me 
point out that we have only heard very positive things about 
this legislation.
    Senator Carper. Could that possibly be my bill?
    [Laughter.]
    Senator Carper. Well, who said them? Who said those 
positive things?
    Was that you, Mr. Ashe?
    Mr. Ashe. I think I did.
    Senator Carper. OK, good. Well thank you. Thanks very much.
    Thank you both very much for joining us. I am sorry I 
missed your testimony. My colleagues and I, we usually have 
several different hearings going on at once, and I have been 
trying to combat waste and fraud in Medicare and Medicaid 
downstairs for the last hour or two. Now, we are going to come 
up and try to do good things with clean water in a bunch of 
places, including the estuary that we call the Delaware River 
Estuary.
    It is a big one. And we have noted, with some pleasure, the 
river that divides our two States, the water quality is getting 
better. We continue to work on it because everything we do we 
know we could do better.
    Let me just ask, if I can, I have a statement I would like 
to enter for the record, Mr. Chairman, please.
    Senator Cardin. Without objection, your entire statement 
will be made a part of the record.
    Senator Carper. Thank you. Thank you.
    Mr. Ashe, based on your expertise as Director of the Fish 
and Wildlife Service, could you just expand for us on the 
importance for us that you mentioned in your testimony of 
protecting the Delaware Basin Watershed? What are some of the 
risks, ecological risks, economic risks, and other risks that 
could come to bear if we do not invest in protecting the 
Delaware River?
    I think when you look at how much money we invest, the 
Federal dollars that we invest in protecting the Delaware River 
Estuary, I think it is pretty modest by Federal standards, by 
like $1 million. Can you compare that with some others? Maybe 
you can give us an idea of what we are spending in some areas 
of the country if that is a modest investment. I think it is. I 
would be interested in knowing what the cost-benefit ratio is 
but it has got to be pretty good because the investment is so 
modest.
    Could you just, if you will, go back to the importance that 
you mentioned in your testimony of protecting the Delaware 
River Basin and also just share with us some of the risks? 
Thank you.
    Mr. Ashe. The Delaware River and the Delaware Bay Estuary 
are--provide a tremendous natural resource for the country. And 
when you think about the two sides, of course, even in the Fish 
and Wildlife Service we have the Cape May National Wildlife 
Refuge on the New Jersey side, we have Prime Hook and Bombay 
Hook on the Delaware side, we have a tremendous interest in 
resources like the red knot, a migratory species that goes from 
South America to the Arctic to nest. Delaware Bay is a key 
resting and foraging place for the red knot.
    Senator Carper. We like to say it is the place they like to 
stop for lunch.
    Mr. Ashe. Exactly.
    Senator Carper. Sometimes breakfast, too.
    Mr. Ashe. So it is just a key strategic resource from the 
standpoint of fisheries and wildlife management along the 
Eastern Seaboard. And you mentioned the cost-benefit ratio. I 
think what you are trying to do is preventative care, put the 
investment into the resource before we have a crisis. We can 
see places like the Everglades, where we are spending billions 
of taxpayer dollars, and the San Francisco Bay Delta, again 
billions of taxpayer dollars to restore ecological systems that 
have collapsed as a result of misguided management in the past. 
Se, we applaud your effort to really do preventative management 
and lead that effort.
    What we would like to do is work with you to see if we can 
put this into the context of some of the larger efforts that we 
are looking at along the north Atlantic, the North American 
Wetlands Conservation Act and some of the larger landscape 
issues that we are working on and are represented in the 
legislation before the Committee today.
    Senator Carper. Let me just ask a question about how do we 
measure progress. One of my favorite questions of people when 
they are presenting with us ideas to spend Federal dollars is 
what do you want to accomplish, and how would you go about 
measuring progress. Could you just sort of work off of that 
question with respect to an estuary like the Delaware River 
Basin Watershed?
    Mr. Ashe. Measuring progress in our field is, of course, a 
great challenge. One of the things that we are working on in 
the U.S. Fish and Wildlife Service is can we use, can we find 
biological metrics that tell us something about ecosystem 
health on a larger scale? And so, we would like to look at 
areas like the middle Atlantic, the Delaware River Estuary, and 
say, can we establish biological markers that tell us something 
about the larger ecosystem function?
    So, we might look at things like the red knot. What is, is 
that population a good indicator of aspects of ecological 
health within the Delaware River Basin? Things that we can 
readily measure but that also tell us something about larger 
ecological function.
    Senator Carper. OK. If I could, last week Senator 
Lautenberg and I were sitting here and we were having a hearing 
on mercury, the emission of mercury and what it does when it 
gets into the water and fish, birds and waterfowl, and what is 
done with pregnant women, childbearing women and the children 
they bear in too many cases.
    And right there, sitting in your seat, was a witness from 
Michigan, the northern part of Michigan, and she is an 
outdoorswoman of some renown, and she is lovingly referred to 
in northern Michigan as the Sturgeon General.
    [Laughter.]
    Senator Carper. The Sturgeon General. So, when she 
testified, Senator Lautenberg, I called her General during the 
course of her testimony.
    [Laughter.]
    Senator Carper. She was actually quite a good witness.
    But when you look to sturgeon population in the Delaware 
River, I think is coming back a little bit. I just kind of--is 
this one of the markers that we look at to see if we are making 
some progress? I think we are.
    The last thing I would say is we have gone through, as 
Senator Lautenberg knows, a lot of discussion between Delaware, 
Pennsylvania, New Jersey, and others, environmental community 
reports up and down the river, on whether or not we can safely 
dredge the Delaware River Bay to a depth of 45 feet in order to 
make sure that our ports remain vibrant and relevant. And after 
a lot of research and thinking and talking and all, we finally 
decided that yes, we can do that.
    There is a big question, one of the questions we wrestle 
with here is, is it possible to have economic growth and job 
creation and still protect the environment? And we think in 
this case that we can, and we are going to go forward in a very 
guarded, measured way to make sure that our ports continue to 
be vibrant, active, and relevant but at the same time we do not 
despoil the water, reverse the quality that we have made in 
cleaning up the Delaware River.
    Mr. Chairman, I think it is great that you had this 
hearing. We really appreciate your giving us a chance to talk a 
little bit about the legislation some of us have introduced. 
So, thank you so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I would like to thank Chairman Cardin for scheduling this 
legislative hearing today to consider a number of important 
items, including S. 1266, the Delaware River Basin Conservation 
Act. The Delaware River Basin Conservation Act is co-sponsored 
by members of this Committee, including Senators Lautenberg and 
Gillibrand, and Senators Coons, Casey, Menendez, and Schumer. 
There is also a House version of the Delaware River Basin 
Conservation Act, which was introduced last June as well, and 
is co-sponsored by several Republican and Democrat Members of 
Congress.
    Despite being a major economic, environmental, and 
recreational asset, the Delaware River Basin watershed region 
does not have a Federal program charged with leading 
conservation and restoration efforts in the region. The 
Delaware River Basin is home to more than 8 million people, and 
more than 15 million people depend on it as a source of 
drinking water, including the populations of the first and 
fifth largest cities in our country, New York and Philadelphia. 
It is estimated that the Delaware River Basin contributes more 
than $10 billion annually to the economy, supporting critical 
economic activity in the port, shipping, agriculture, fishing, 
tourism, food and beverage, and other industries. Given the 
tremendous value of the Delaware River Basin, it makes a lot of 
sense to me that we would take the necessary steps to safeguard 
this important resource so that it can continue to provide this 
great value to our economy, environment, and our communities 
for generations to come.
    S. 1266 would establish the Delaware River Basin 
Restoration Program within the Fish and Wildlife Service. This 
program would be charged with creating a single, basin-wide 
strategy to guide conservation and restoration efforts in the 
Delaware River watershed region. The program would support on-
the-ground conservation and restoration projects in the 
Delaware River region. These projects would create real jobs--
jobs that not only add economic value but also improve the 
quality of our environment, resulting in a double return on our 
investment.
    S. 1266 was passed out of the Environment and Public Works 
Committee in December of last year. Prior to that, my office 
worked closely with several stakeholders that operate in the 
Delaware River watershed region, and with the U.S. Fish and 
Wildlife Service, to make improvements to the bill, which were 
successfully included in the bill that was passed out of this 
Committee last December. I greatly appreciate today's 
legislative hearing as an opportunity to hear further feedback 
on S. 1266 and will take the comments offered by our witnesses 
today to heart as we continue to move this important piece of 
legislation forward.
    Thank you.

    Senator Cardin. Senator Carper, we thank you for your 
strong national leadership on great water bodies, including the 
Delaware River Basin. It is the way that I think we can really 
get a handle on preserving our biodiversity and our 
environment, and we also pointed out, our economy. It is very 
important. We appreciate your leadership.
    Dr. Anderson, before I do that, Mr. Ashe, I want to just 
compliment you on the response with Senator Udall as it relates 
to the Endangered Species Act. We are in total agreement that 
these candidates for conservation agreements are the way to 
proceed for the two reasons that you mentioned. First, they 
avoid a listing when we have management plans that are 
reversing the trends that have already taken place. And second, 
in the event that there is a listing, it also provides safe 
harbors for those who have made the proper investments. So, I 
thank you for that.
    And thank you for the leadership in New Mexico, Senator 
Udall. I think what you are doing is the right thing as it 
relates to the lizard, and we hope that we will be able to 
proceed in western Texas so that this will be an issue that 
will be handled in the spirit of why we have the Endangered 
Species Act. So we wish you well on that.
    Senator Tom Udall. Thank you.
    Senator Cardin. Dr. Anderson, I want to turn to the 
chimpanzees for one moment. I very much appreciate your 
testimony and the acceptance of the Institute of Medicine's 
recommendations. But you point out that it is going to take a 
little bit of time for you all to figure out exactly how to 
handle this as it relates to your current population of 
chimpanzees.
    I think the Cantwell bill envisions--well, it would not 
envision, it mandates that the experimentation end. It also 
points out that many of the chimpanzees would be sent to 
sanctuaries and envisions a savings of several tens of millions 
of dollars for taxpayers.
    My question to you is, or request, is that I would ask the 
National Institutes of Health to give us some direction. If 
Congress is to pass legislation, how you would want that 
legislation drafted?
    I do not want to make any assumptions. But the legislation, 
as currently drafted, if it were enacted into law, would 
prevent the further experimentation on chimpanzees. I 
understand from your testimony that is not the position of the 
National Institutes of Health at this particular moment.
    So I would ask that you focus on what would be the proper 
congressional response to help the implementation of the 
Institute of Medicine's recommendations which may be, or may 
not be, what the Congress wants to do. But I think it is a good 
starting point and probably does represent the best consensus 
that we might be able to get in Congress.
    Dr. Anderson. Thank you, Senator. We will do that. We will 
do that in writing.
    Senator Cardin. That would be, I think, helpful for us in 
our work. And also as it would relate to what your intentions 
are to do with the chimpanzees that are no longer going to be 
candidates for use and how you would recommend we handle that 
transition.
    Dr. Anderson. I would like to point out that we have asked 
for recommendations from the working group specifically on 
these issues. So, I would not want to preempt their 
conclusions. But they are asked to address those issues.
    Senator Cardin. That would be helpful if you get first 
their recommendations to you and then second your response. So 
far as I understand it, you are accepting the Institute of 
Medicine's recommendations.
    Dr. Anderson. Completely. Yes, sir.
    Senator Cardin. And if that continues, we need to know that 
because they give you additional information. My expectation is 
that you will follow their recommendations, and then we will 
need a game plan as to how you intend to implement that and how 
the Congress could be helpful so that these policies become 
institutionalized within the Government, not just from one 
Administration, but have a little bit more staying power.
    Dr. Anderson. Thank you, Senator, we will.
    Senator Cardin. And then the last point that was raised as 
to how it relates to animal experimentation beyond just 
chimpanzees. It would be interesting to keep us informed on 
that so that we can try to be a positive partner with the 
National Institutes of Health.
    Dr. Anderson. Thank you. We will.
    Senator Cardin. Thank you.
    Again, let me thank both of our witnesses for their 
testimony. We will now turn to the second panel.
    Let me welcome Dr. Doug Inkley, Senior Wildlife Biologist 
for the National Wildlife Federation. Dr. Inkley is a certified 
wildlife biologist with expertise in ecology and wildlife 
management and is the National Wildlife Federation's Senior 
Scientist.
    Let me also welcome Dr. Martin Wasserman, former Secretary 
of the Maryland Department of Health and Mental Hygiene, former 
Administrator of the Oregon Public Health Department. Dr. 
Wasserman is a pediatrician, a lawyer, and has served as the 
Executive Director of the Maryland State Medical Society, a 
Maryland constituent and a friend. So it is good to have Dr. 
Wasserman here. We have worked together on many issues from 
public health to policies affecting broader issues in our 
State. It is a pleasure to have you before our Committee.
    And Dr. Greg Schildwachter. Dr. Schildwachter is a 
professional conservationist with 25 years of experience in 
policy, science, and management of land, water, fish, and 
wildlife. He holds a degree in Wildlife Biology from the Boone 
and Crockett Wildlife Conservation Program at the University of 
Montana, as well as degrees from the University of Tennessee 
and the University of Georgia.
    It is a pleasure to have all three of you with us. We will 
start with Dr. Inkley.

            STATEMENT OF DOUGLAS B. INKLEY, PH.D., 
         SENIOR SCIENTIST, NATIONAL WILDLIFE FEDERATION

    Mr. Inkley. Good morning, Senator Cardin. As a 30-year 
resident of the State of Maryland, I have to tell you that I 
was especially pleased to receive your invitation to testify 
today.
    Senator Cardin. I do not think I had that on my 
introduction.
    Mr. Inkley. No, I kept it a secret.
    Senator Cardin. Well, let me add that to my introduction. 
It is a pleasure to have another Marylander on the panel.
    [Laughter.]
    Mr. Inkley. Thank you.
    The National Wildlife Federation's 4 million members and 
supporters include outdoor enthusiasts of all types, hunters 
and anglers like myself, backyard gardeners, birdwatchers, and 
many more. So, on their behalf today, and our 48 affiliated 
States, including the Baltimore Aquarium, one of our 
affiliates, we greatly appreciate the opportunity to testify 
for the purpose of protecting wildlife for our children's 
future. So thank you again.
    It is worth noting that four of the bills under discussion 
today pertain to three long standing laws supported largely by 
hunters and anglers. It is a testament to their commitment that 
they support providing the funding for the so-called Duck Stamp 
Act, the Federal Aid and Wildlife Restoration Act, which you 
and I know as the Pittman-Robertson, or PR, Act, and matching 
funds for implementation of the North American Wetlands 
Conservation Act.
    As a hunter, I am especially proud that my fellow sportsmen 
and women are putting their money where their mouth is, over 
the history of those programs, some $10 billion just for those 
three programs alone to conserve some 35 million acres.
    In the interest of brevity, I ask that my entire written 
testimony be submitted for the record.
    Senator Cardin. All of your statements, all three of the 
witnesses, your full statements will be included in the record.
    Mr. Inkley. Thank you. I will briefly highlight five of the 
bills.
    The first two bills pertain to the Duck Stamp Act. The 
National Wildlife Federation has supported this Act ever since 
our founding in 1936. J.N. Ding Darling, a giant in 
conservation, helped establish the Duck Stamp Act in 1934 and 
sketched the first ever duck stamp. It is no small coincidence 
that Ding Darling was also a founder of the National Wildlife 
Federation and the artist for our first annual production of 
conservation stamps. So we feel a particular affinity for that 
law and are very supportive of it.
    The Duck Stamp Act requires all waterfowl hunters to 
purchase a duck stamp and the revenue furthers the conservation 
of wetlands and contributed to the addition of more than 6 
million acres to the National Wildlife Refuge System. 
Certainly, a great success.
    So the two bills being discussed today, the Permanent 
Electronic Duck Stamp Act of 2012 and the Migratory Bird 
Habitat Investment and Enhancement Act, are both intended to 
strengthen the ability to continue the effectiveness of this 
program. Without going into the details of those programs, I 
will simply state that we certainly strongly support both of 
those and look forward to their being passed and enacted into 
law.
    The third bill to discuss today, and I noticed that Senator 
Carper was here earlier, is the Delaware River Basin 
Conservation Act, S. 1266. This Act provides a framework for 
protecting and restoring the Delaware River Basin. It has more 
than 200 finfish and shellfish species, and the watershed 
provides clean drinking water to 7 million people in the city 
of New York. These benefits, unfortunately, are threatened by 
changes in land use and the region's long legacy of pollution.
    The Act would help to one, restore or protect fish and 
wildlife species and habitats, and two, improve or protect 
water quality. So, we support the Delaware River Basin 
Conservation Act and applaud the Committee and you, Senator 
Carper, for favorably reporting it in December 2011. Thank you.
    The fourth bill is the National Fish and Wildlife 
Foundation Reauthorization Act which I will refer to as NFWF, 
which most people do. It facilitates private investments in 
fish and wildlife conservation in partnership with Federal 
conservation agencies such as the Fish and Wildlife Service. It 
is especially important in these economic times, and 
impressive, that NFWF leverages every Federal dollar with at 
least 3 private dollars to invest in conservation.
    Two great examples of success are efforts to restore the 
longleaf pine community in the Chesapeake. Both are described 
in greater detail in my testimony, but I would also note that 
the National Wildlife Federation and our affiliated 
organizations are both involved in those conservation efforts. 
S. 1492 will reauthorize NFWF at its existing authorization 
level and allow NFWF to continue its remarkable legacy of 
conservation successes. We urge its passage.
    The fifth and last bill that I will make my remarks on, 
briefly, is the North American Wetlands Conservation Extension 
Act. This really is a world class model for successful public-
private cooperation, achieving on-the-ground wildlife 
conservation.
    Since its inception nearly a quarter century ago, NAWCA has 
facilitated the conservation of more than 26 million acres 
across the 50 States of the United States. Because it has such 
a strong track record in incentivizing significant investment 
in habitat conservation, we certainly support this program as 
well.
    In conclusion, we appreciate the Committee's efforts to 
address these important wildlife issues that have been the 
subject of today's hearing and look forward to working with you 
to enact them.
    And again, thank you very much for having me. As a Maryland 
resident, we finally meet.
    [The prepared statement of Mr. Inkley follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Cardin. It is a pleasure to have you before the 
Committee.
    Dr. Wasserman.

 STATEMENT OF MARTIN WASSERMAN, M.D., J.D., FORMER SECRETARY, 
 MARYLAND DEPARTMENT OF HEALTH AND MENTAL HYGIENE, AND FORMER 
         ADMINISTRATOR, OREGON PUBLIC HEALTH DEPARTMENT

    Dr. Wasserman. Thank you, Chairman Cardin.
    Thanks for inviting me to speak on behalf of the Great Ape 
Protection and Cost Savings Act. I am Dr. Martin Wasserman, and 
I have lived in Maryland for 45 years. And I received both my 
medical and law degrees here. I have treated children on the 
Navajo Reservation in New Mexico as well as in West Baltimore 
at University Hospital.
    Particularly relevant to today's discussion, though, I have 
also been the Medical Director of Immunization Practices and 
Scientific Affairs for the Vaccine Division of GlaxoSmithKline 
Pharmaceuticals. As both a pediatrician and public health 
physician, I have always placed patients first.
    But when certain animal research or experimentation is no 
longer necessary, I have also considered my Hippocratic Oath 
which constantly reminds me to ``do no harm.'' To that end, I 
believe we have an obligation to utilize the most effective 
scientific methodologies when performing research in order to 
improve the public's health.
    The legislation before you today has many components. One, 
it recognizes the social and behavioral similarities of 
chimpanzees and humans. But even though we share 95 to 98 
percent of each other's genetic material, the expression of 
these genes can be dramatically different in our two species.
    Two, it acknowledges chimpanzee contribution to past 
medical research, like polio, as stated, in 1950. But because 
of recent advances in scientific methodology, it recognizes 
that continuing to use them is unnecessary. Three, it rewards 
these animals' service by phasing out invasive experimentation 
as we gain new knowledge and methodologies and provides 
lifetime care in a Federal sanctuary.
    Four, it codifies and provides the force of law, the force 
of law--the force of law--to the current NIH voluntary breeding 
moratorium and ends breeding of chimpanzees for the purpose of 
invasive research. And fifth, it will save the Government $300 
million over the next 10 years.
    Four months ago the Institute of Medicine released a report 
on the necessity of chimpanzee research, initiated at the 
request of Senators Harkin, Udall, and Bingaman. As Dr. 
Anderson stated, Dr. Collins and NIH have taken the IOM report 
seriously, and they are to be applauded for their efforts.
    But theirs is the response of the current NIH leadership. 
And as we well know, administrations change, leaders change, 
and policies change. Passing this bill will exclusively focus 
on chimpanzees. It will ensure that invasive experimentation in 
chimpanzees will be phased out in the future and will encourage 
researchers to adopt alternative, more timely, and more 
fruitful research approaches.
    In the IOM report, the authors did not find a single area 
of human health research for which chimpanzees are necessary. 
Even during their discussions of hepatitis C disease, the 
authors concluded that chimpanzees are not necessary for either 
anti-viral drug discovery or development or the development and 
testing of a therapeutic vaccine, and also that it is both 
possible and ethical to bring a preventive vaccine to human 
testing without using chimpanzees.
    Although hepatitis C remains a serious worldwide public 
health problem, further chimpanzee research will not be helpful 
in our battle against this disease. A variety of alternative 
research approaches for hepatitis C are available, including 
the VaxDesign MIMIC system. This human-based, in vitro system 
is appropriate for every stage of drug and vaccine development. 
Some businesses are developing new research methodologies 
already, and I am proud that my former company, 
GlaxoSmithKline, is no longer using chimpanzees in its 
research.
    Let me clear up a misunderstanding with regard to the Food 
and Drug Administration and chimpanzee research. The FDA does 
not require the use of chimpanzees for either drug or vaccine 
testing. In fact, during the past year the FDA approved two new 
drugs for hepatitis C, Bociprevir and Telaprevir, neither of 
which used chimpanzees in either the development or testing 
phase.
    In the beginning of my comments I mentioned the Hippocratic 
Oath, to ``do no harm.'' Consider the following. The United 
States is the only Nation in the world known to use captive 
chimpanzees for large scale invasive research. These animals 
respond to stress and trauma as we do. Published studies reveal 
that they suffer symptoms of post-traumatic stress disorder, 
and when used in research they become clinically depressed and 
demonstrate multi-organ diseases.
    Since there is little we will gain by continuing to use 
them in research, there is no need to continue to keep them in 
costly laboratories where complex social and psychological 
needs cannot be met.
    In conclusion, concerns have been expressed that passing 
this bill would preclude the use of chimpanzees in the case of 
a national emergency. During the IOM hearings, experts in 
biodefense stated that chimpanzees would make poor models for 
future emerging diseases because of their slow response times, 
in terms of months rather than days.
    The bill's sponsors have agreed to include an amendment 
inserting an emergency clause in case of a dire public health 
crisis. Provided it remains transparent, the clause should 
sufficiently address any public health concern about the future 
need for chimpanzees in research.
    I respectfully request that you pass the Great Ape 
Protection and Cost Savings Act. It will end a cycle of 
wasteful and unnecessary research, save money, and protect 
chimpanzees who have already given so much of their lives to 
research in the past.
    Thank you.
    [The prepared statement of Dr. Wasserman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
   
    
    Senator Cardin. Thank you, Dr. Wasserman.
    Dr. Schildwachter.

            STATEMENT OF GREG SCHILDWACHTER, PH.D., 
                     WATERSHED RESULTS LLC

    Mr. Schildwachter. Thank you, Mr. Chairman, and thank you 
for your excellent pronunciation. I appreciate that as much as 
I appreciate Senator Inhofe's welcome though it was remarkable 
more for enthusiasm than for accuracy in pronunciation.
    [Laughter.]
    Mr. Schildwachter. And I thank you for taking up the 
measures before you today. They are nearly all about active 
conservation, which gets less publicity usually than 
environmental conflicts, perhaps because it is less noticeable 
in the out of the way places where it takes place and less 
attractive with the actual physical labor involved in habitat 
restoration. But it is more important than what divides us.
    We cannot live without wildlife or the places where they 
live. And active conservation is how we ensure that we have 
them. It is a starting point for where we can all agree. It is 
a standard for resolving our disagreements over regulatory 
protections. And it has been the historical commitment for 
sportsmen for more than a century in American history. And 
though I speak today for myself, I know for sure that many 
sportsmen's organizations will share in the views that I share 
with you today, especially in thanking you for the bipartisan 
agreement on the agenda today.
    Active conservation comes down to someone who must do the 
work, and often that is the landowner. In fact, it must be a 
landowner if we are to succeed. We also need Federal support to 
share this responsibility. The costs must be shared because the 
values are also shared, and the benefits that are created from 
habitat conservation.
    The programs you consider today show that responsibilities 
are being shared in a way resembling infrastructure policy. 
That is appropriate because habitat is the infrastructure for 
wildlife, and the principle at work is that those who enjoy the 
benefits most directly pay most directly to support them. The 
general benefits fall on everyone, and therefore a share of 
Federal funds is right and proper. The sportsmen's ethic has 
always been to create and cultivate that which we seek to enjoy 
and to pay our way.
    The National Fish and Wildlife Foundation is an example, 
and I support Senate 1494 to reauthorize it. NFWF is a true--
not rhetorical--investment in that $1 of Federal expense 
returns multiple dollars back from the private sector. It 
returns an actual return. NFWF has proven successful in its 
nearly 30+ year history, nearly 30-year history, and the bill 
refines the authority according to that experience. For 
example, the provision authorizing how funds can be exchanged 
between NFWF and the agencies will make it more efficient.
    NFWF is a valuable mixed model of public and private 
conservation to leverage the strengths of the governmental role 
and the abilities of the private sector. Likewise, NAWCA, the 
North American Wetlands Conservation Act, is a cost share 
arrangement between private and State partners that raise money 
for wetland conservation, and I support S. 2282 and recommend 
its reauthorization. NAWCA is one of the six major wetland 
programs we have and part of the reason we are on track to 
regaining prevalent wetlands in this country.
    The Duck Stamp Program for which we have both Senate 2071 
and Senate 2156 is similar, and I support these bills as well. 
With these measures, more people will be able to purchase the 
duck stamp more easily, and the inflation adjustment likely to 
follow will restore some of the buying power of these 
conservation dollars.
    I support Senate 1249 for similar reasons. Shooting ranges 
are a different form of infrastructure for conservation, but 
these are places where training and competition in the skills 
of marksmanship become either a hobby or the avocation of fair 
chase hunting. Arms and ammunition pay an excise tax into the 
fund that would support these ranges and which, in turn, would 
create more revenue for the fund and recruit more participants 
in the sports that support wildlife and habitat conservation.
    I have fewer observations on the other measures, Mr. 
Chairman, but I have provided these in my written statement.
    I thank you again for the opportunity to appear. I look 
forward to any questions.
    [The prepared statement of Mr. Schildwachter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Cardin. Well, I thank all three of you for your 
testimony.
    First, let me just ask a general question on the 
conservation bills, five specific, and then you also added the 
range issue in our parks. Do I understand from Dr. Inkley and 
Dr. Schildwachter, from your testimonies, that you support 
these conservation bills? Are there any amendments or any 
changes that you would want to see us consider, or are you 
satisfied by the way they are drafted and you give basically 
unqualified support for those five bills, in Dr. Inkley's case, 
six bills in Dr. Schildwachter's case?
    Mr. Inkley. Go ahead, Greg.
    Mr. Schildwachter. Yes, sir. I am on board. I would only 
add that another feature that I would urge the Senate to 
consider as they are looking at these programs with the cost 
share basis and the matching funds and the mechanisms by which 
they work in that these programs really need to be prized as we 
do the necessary work of balancing the budget because the 
programs not only leverage dollars from the private sector, but 
in creating the infrastructure as I described, they also become 
places where sales of services and equipment can then proceed 
and in their way contribute to economic recovery as well.
    Mr. Inkley. Thank you for asking. Yes, we do support these 
wildlife bills and their passage.
    The one bill, Wildlife Disease Emergency Act, S. 357, we 
would like to see several discussions pertaining to some 
possible amendments. One of those is that the bill currently 
would apply only to native species, and while invasive species 
are a huge problem in this country, invasive species also can 
carry disease which may be transmitted to native species. So, 
it would seem appropriate that this bill also apply to some of 
the non-native species that may present a problem by carrying 
diseases to native species.
    Second, we would like to see the definition of the Wildlife 
Disease Committee, or the members of that committee, further 
defined to make sure there is a balance of government and non-
government members on that committee to make recommendations. 
Those are our two primary recommendations for the wildlife----
    Senator Cardin. Well, we thank you for that. I would seem 
to me that if an invasive species disease is affecting native 
species that it would probably be covered under the provisions. 
But it is a point that might be worth us reviewing.
    Mr. Inkley. We would like to see that clarified, sir.
    Senator Cardin. OK. Thank you.
    The point about the economic issues is right on target. I 
mean, we do look at conservation as helping, first of all, the 
economic activities that you have already talked about. So, we 
do see this as a plus on the economic side.
    What we want to make sure is that the monies that are being 
generated are used for their intended activities; they are not 
taken for other purposes. We have had a great track record on 
all of these programs. The funds have actually gotten to their 
intended use, and we would certainly want to make sure that 
continues as we look at reauthorizations or expansions of the 
different conservation programs.
    Dr. Wasserman, let me turn to the chimpanzee issue for a 
moment, if I might. I think you have been pretty clear about 
your position. It does seem to be contrary to what the National 
Institutes of Health are suggesting to us and that is that 
there could be a potential use of chimpanzees for research in 
the future and therefore that capacity needs to be maintained, 
admittedly at a different level and under different protocols 
for future use that we have been using currently, but that 
there is this ongoing potential need that we would not want to 
see legislation prevent. I take it you disagree with that?
    Dr. Wasserman. Not completely, Senator Cardin. First of 
all, thank you for having this hearing and for considering this 
subject, which is so important.
    We met in your office and you expressed a similar concern. 
In reviewing the Institute of Medicine report, they brought in 
biodefense testimony just on this specific question, what if 
there is an emergency--you have to have chimpanzees available.
    During that discussion, it was stated that we could never 
consider, never consider where that emergency could come from 
because using a chimp, it takes so long for a chimpanzee to 
respond, and we have so much better and more viable non-
chimpanzee models to use.
    Nevertheless, I recognize the concern that you express and 
that others have expressed, and there has been an amendment 
that has been submitted that under certain situations, with 
transparency, with an opportunity for public comment, then we 
think that the public's health could be protected and the 
inclusion of that amendment should satisfy those concerns.
    Again, I must reiterate that all of the research and all of 
the testimony suggested that there is really no need for the 
chimpanzee model. We are not talking about other animals at 
this point because this bill is exclusively focusing on 
chimpanzees.
    I could go through a litany of differences between how the 
chimpanzee as a biological model differs from the human despite 
the sharing of genetic materials. And particularly in hepatitis 
C and HIV research, which is why we had so many chimpanzees in 
the past several decades, it was learned that chimpanzees could 
be infected with HIV but the disease does not progress to AIDS 
the way it does with humans.
    In testing approximately 85 promising vaccines in 
chimpanzees, there were 200 clinical experiments in humans, 
none of which proved fruitful. And in fact, that is how one 
wastes time in doing research where we focus on the wrong model 
and spend unnecessary time on it.
    So, we feel very confident that there will not be the need 
for chimpanzee research in any kind of a public health 
emergency and would urge that we do not amend this legislation 
in a way that could be taken abuse of and not really effectuate 
what this legislation proposes to do.
    Senator Cardin. Well, I thank you for that. And while we 
appreciate the spirit of the amendment that you are suggesting, 
we will wait to see. We will not wait long. And Dr. Anderson 
indicated that he will have written comments to us, I think he 
said timely. We would welcome your thoughts as we get 
additional information, not only from the National Institutes 
of Health but also from the Institute of Medicine as they are 
looking at ways of transitioning to a new policy. We would 
welcome your response to that information.
    Dr. Wasserman. Thank you. I would be delighted.
    Senator Cardin. Thank you. Let me point out that the record 
of the Committee will remain open for 2 weeks. That allows for 
questions by members of the Committee to our witnesses. It is 
more likely we are going to get questions for the first panel, 
but it could also be for the second panel. We ask that if there 
is a written request for information that you respond to that 
in a timely fashion.
    I would also point out that we have received written 
testimony from Ducks Unlimited, National Fish and Wildlife 
Foundation, the National Environmental Coalition on Invasive 
Species, the Humane Society, and the American Society for the 
Prevention of Cruelty to Animals. Without objection, their 
statements will be included in our records as well as, as 
pointed earlier without objection, the full testimonies of all 
of our witnesses today.
    Once again, I want to thank you all for your cooperation.
    And with that, the Subcommittee will stand adjourned.
    Thank you.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]
    [The referenced testimonies follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    


    
    [Additional statements submitted for the record follow:]

                 Statement of Hon. Sheldon Whitehouse, 
              U.S. Senator from the State of Rhode Island

    I want to thank Senator Cardin for scheduling this hearing 
to discuss legislation relevant to this Committee, particularly 
the National Fish and Wildlife Foundation Reauthorization Act 
of 2011 (S. 1494), which I am happy to be a co-sponsor of.
    The National Fish and Wildlife Foundation (NFWF) enjoys 
bipartisan support for its ability to use Federal funding to 
leverage non-Federal support for conservation purposes--often 
at well over a 2 to 1 ratio--by creating successful 
partnerships with the Federal Government, State and local 
governments, and private entities.
    At a time when Federal funding is difficult to come by and 
our coastal ecosystems are under stress from chemical and 
nutrient pollution, marine debris, energy extraction, 
overfishing, overdevelopment, and climate change, programs like 
NFWF are especially important.
    NFWF has awarded 46 grants in Rhode Island since 2000. This 
$4.8 million in Federal funding has leveraged $6.6 million in 
matching funds, totaling $11.4 million invested in 
conservation.
    For example, NFWF has provided funding to implement a 
marine science program for elementary schools in Newport, Rhode 
Island, to conduct biological surveys and management plans for 
acquisition of land trusts in Narragansett Bay. These 
management plans are being developed with private landowners in 
order to both protect natural resources and maintain a working 
landscape.
    NFWF grantees in Rhode Island include the Rhode Island 
Party and Charter Boat Association, Rhode Island Natural 
History Survey, and Save the Bay. Among other things, these 
projects are focused on fisheries conservation, collection of 
marine debris, and improving essential marine and coastal 
habitats for a variety of native wildlife species.
    I'd also like to speak in favor of another piece of 
legislation being discussed today, the North American Wetlands 
Conservation Extension Act (S. 2282). By restoring wetlands we 
also protect a variety of species, including migratory birds, 
that depend on these at risk ecosystems. More than half 
(roughly 55 million acres) of wetlands in the U.S. have been 
destroyed, including 95 percent of the San Francisco Bay's 
original wetlands, 22 percent of Rhode Island's wetlands, 85 
percent of seagrass meadows in Galveston Bay, and 25,000 acres 
annually of coastal marshes in Louisiana.
    The destruction of wetlands also harms the recreation, 
tourism, and fishing industries that rely on the species 
supported by this critical habitat. S. 2282 would extend the 
authorization of this successful conservation program through 
2017.
    Thank you again to everyone who is here to speak on behalf 
of these important programs, and I look forward to future 
action on both pieces of legislation in this Committee.

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Good morning.
    Thank you, Chairman Cardin, for holding today's hearing. We 
have a long list of bills on the agenda.
    Before considering new bills--particularly if they will 
result in new spending--we should give serious consideration to 
our Nation's fiscal situation. In fiscal year 2013 our 
Government will run the fifth consecutive deficit over $1 
trillion. We have to act now to ensure that all Federal 
agencies and programs are operating as efficiently as possible; 
that means at the lowest possible cost. In all programs we need 
to look for new ways to maximize the return on Federal taxpayer 
dollars. We also need to consider the costs and benefits very 
carefully before creating new programs. We should not ask 
taxpayers to authorize spending more than is absolutely 
necessary. I believe that until the Senate and this 
Administration get serious about passing a budget that sets 
spending priorities and addresses our debt problem the American 
people should not be asked to send one more dime in new taxes 
to Washington.
    With that said, there are several bipartisan bills on 
today's agenda that merit this Committee's full consideration. 
Several bills on our agenda deal directly with issues of 
importance to our Nation's hunters and sportsmen. For instance, 
S. 1249, the Target Practice and Marksmanship Training Support 
Act, which is sponsored by Senators Baucus, Begich, Bennett, 
Hagan, Klobuchar, McCaskill, Risch, and Tester, would amend the 
Pittman-Robertson Wildlife Restoration Act to expand the 
availability of target practice facilities on Federal lands. I 
think we should give this legislation a close review.
    I also agree with the concept of allowing States to use 
electronic duck stamps instead of the more expensive paper 
stamps. S. 2071, the Permanent Electronic Duck Stamp Act of 
2012, which is sponsored by Senators Wicker, Baucus, and Pryor, 
would authorize the States to issue electronic duck stamps 
instead of the current paper form.
    The National Fish & Wildlife Foundation (NFWF) program has 
also been an effective program that has helped conserve 
wildlife across the Nation. As just one example, NFWF partnered 
with Southern Company to invest over $7 million in projects to 
restore more than 61,000 acres of longleaf pine forest in the 
southeastern United States. I look forward to hearing more 
about the NFWF program this morning.
    I also appreciate the work of Senator Inhofe in introducing 
the North American Wetlands Conservation Act (NAWCA) 
reauthorization bill. Alabama currently has several NAWCA 
projects in the Mobile-Tensaw Delta that are conserving more 
than 47,000 acres of wildlife habitat. NAWCA is a voluntary 
program that does not seek to impose unwarranted new 
regulations on landowners.
    Voluntary, cooperative wetlands programs like NAWCA stand 
in stark contrast to the Obama administration's command and 
control environmental agenda that is reflected in many of the 
Administration's recent initiatives, including their ``wetlands 
guidance document.'' Last month, I joined Senators Inhofe, 
Barrasso, and Heller in introducing S. 2245, the Preserve the 
Waters of the U.S. Act, which would block the Administration's 
new ``wetlands guidance'' document from going into effect. Our 
bill, which has 32 cosponsors, would prevent the Administration 
from bypassing Congress and the regulatory approval process to 
vastly expand its jurisdiction over lands and waters across the 
country. Mr. Chairman, I would respectfully ask that our 
Committee include the Preserve the Waters of the U.S. Act on 
the agenda of our next legislative hearing or markup.
    Finally, I understand that many people are concerned about 
the treatment of chimpanzees in research facilities. S. 810, 
the Great Apes Protection Act, is intended to end invasive 
research on great apes. Scientific research that can cure 
diseases for humans and animals is so important that we must 
think this issue through carefully. I have heard from 
stakeholders on both sides of this important issue, and I look 
forward to hearing the testimony this morning.
    Thank you.

    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
                                 <all>
</pre></body></html>
